DOUGLAS N. LETTER

BROOKS M. HANNER

GENERAL COUNSEL

ASSISTANT GENERAL COUNSEL

TODD B. TATELMAN
DEPUTY GENERAL COUNSEL

MEGAN BARBERO
ASSOCIATE GENERAL COUNSEL

JOSEPHINE MORSE
ASSOCIATE GENERAL COUNSEL

U.S. HOUSE OF REPRESENTATIVES
OFFICE OF GENERAL COUNSEL
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
(202) 225-9700
FAX: (202) 226-1360

ADAM A. GROGG
ASSISTANT GENERAL COUNSEL

SARAH E. CLOUSE
ASSISTANT GENERAL COUNSEL

JONATHAN B. SCHWARTZ
ATTORNEY

November 18, 2019

Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Donald J. Trump et al. v. Mazars USA, LLP, et al., No. 19A545
Dear Mr. Harris:
On November 15, 2019, President Donald Trump, in his individual capacity,
and several related entities (collectively, the Trump Applicants) filed an application
with this Court for a stay of the D.C. Circuit’s mandate pending disposition of their
forthcoming petition for a writ of certiorari. In addition, the Trump Applicants
sought an immediate administrative stay to allow this Court time to rule on their
stay motion. Absent a stay, the D.C. Circuit’s mandate will issue on November 20,
2019.
This case involves a subpoena issued by the U.S. House of Representatives
Committee on Oversight and Reform to Mazars USA, LLP, a long-time accountant
for the Trump Applicants. The district court granted enforcement of the
Committee’s subpoena. The Trump Applicants appealed to the D.C. Circuit, and
the Committee agreed to a stay pending appeal, in exchange for an expedited
briefing and argument schedule, which was granted. A panel of the D.C. Circuit
upheld the validity of the Committee’s subpoena, and the court of appeals on
November 13, 2019, denied rehearing en banc through an 8-3 vote.
The Committee will file an opposition to the Trump Applicants’ motion for a
stay of issuance of the D.C. Circuit’s mandate pending disposition of their upcoming
certiorari petition. Out of courtesy to this Court, the Committee does not, however,
oppose a short ten-day administrative stay, beginning on November 20, 2019, to
enable the Court to receive an opposition by the Committee and then rule on the
Trump Applicants’ request for a stay pending certiorari. The Committee will plan
to file its opposition to the stay request on November 22, 2019.

Respectfully submitted,

0~ %~

Dougfas.Letter
General Counsel

OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Office Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house .gov

cc:

William S. Consovoy, Esq.
Jerry Daniel Bernstein, Esq.

2

